Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   INAPPROPRIATE MEDICARE
        PAYMENTS FOR
    CHIROPRACTIC SERVICES




                    Daniel R. Levinson
                     Inspector General

                       May 2009
                     OEI-07-07-00390
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
E X E C U T I V E                        S U           M M A R Y
Δ    E X E C U T I V E                                     S U M M A R Y


                   OBJECTIVE
                   To determine the extent to which:

                   (1)         chiropractic claims allowed in 2006 for beneficiaries receiving
                               more than 12 services from the same chiropractor were
                               appropriate,

                   (2)         controls ensured that chiropractic claims were not for maintenance
                               therapy,

                   (3)         claims data can be used to identify maintenance therapy, and

                   (4)         chiropractic claims were documented as required.


                   BACKGROUND
                   As required by the Social Security Act, Medicare pays only for medically
                   necessary chiropractic services, which are limited to active/corrective
                   manual manipulations of the spine to correct subluxations.
                   Chiropractors must use the acute treatment (AT) modifier to identify
                   services that are active/corrective treatment and must document
                   services in accordance with the Centers for Medicare & Medicaid
                   Services’ (CMS) “Medicare Benefit Policy Manual” (the Manual) when
                   submitting claims. When further improvement cannot reasonably be
                   expected from continuing care, the services are considered maintenance
                   therapy, which is not medically necessary and therefore not payable
                   under Medicare.
                   We identified allowed claims with the AT modifier for beneficiaries with
                   more than 12 claims from the same chiropractor in 2006. We then
                   contracted with a medical review contractor to review medical records
                   from a simple random sample of 188 claims. For each treatment
                   episode, the medical records were reviewed to identify the initial visit
                   and subsequent visits (if relevant) to determine whether each sampled
                   claim was active/corrective treatment or maintenance therapy, the
                   extent to which chiropractors supported their use of the AT modifier
                   with proper documentation indicating active/corrective treatment,
                   whether claims were coded properly, and whether documentation met
                   the Manual requirements.


                   FINDINGS
                   Medicare inappropriately paid $178 million for chiropractic claims in
                   2006, representing 47 percent of claims meeting our study criteria.
 OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                          i
E X E C U T I V E                        S U           M M A R Y


                   In 2006, Medicare inappropriately paid $178 million (out of
                   $466 million) for chiropractic claims for services that medical reviewers
                   determined to be maintenance therapy ($157 million), miscoded
                   ($11 million), or undocumented ($46 million). These claims represent
                   47 percent of all allowed chiropractic claims that met the study criteria.
                   Claims representing $36 million had multiple errors.

                   Efforts to stop payments for maintenance therapy have been largely
                   ineffective. CMS, carriers, and program safeguard contractors (PSC)
                   use a number of strategies to deter inappropriate payments for
                   maintenance therapy, including use of the AT modifier to indicate
                   active/corrective treatment, provider education, frequency-based control
                   edits (caps), and focused medical review. Despite these efforts, carriers
                   and PSCs continue to report high errors for chiropractic claims. Carrier
                   staff, PSC staff, and medical reviewers for this study agreed that the
                   AT modifier did not prevent inappropriate payments for maintenance
                   therapy because chiropractors continued to submit claims for
                   maintenance therapy with the AT modifier.

                   Claims data lack initial visit dates for treatment episodes, hindering
                   the identification of maintenance therapy. To identify active/corrective
                   treatment and thereby distinguish it from maintenance therapy, it is
                   useful to identify the start of a new treatment episode. However, claims
                   data do not indicate when an episode begins. Thus, we asked sampled
                   chiropractors and the medical reviewers to identify when an episode
                   began and ended. Overall, only 50 percent of all treatment episodes
                   remained active/corrective throughout the treatment episode. In
                   addition, 78 percent of those treatment episodes that became
                   maintenance therapy did so by the 20th visit. The Comprehensive Error
                   Rate Testing (CERT) paid claims error rate used by CMS is based on a
                   review of a single claim, which limits its ability to detect maintenance
                   therapy and may underestimate errors in claims for chiropractic
                   services.

                   Chiropractors often do not comply with the Manual documentation
                   requirements. Separate from the undocumented claims counted as
                   errors above, 83 percent of chiropractic claims failed to meet one or
                   more of the documentation requirements. Consequently, the
                   appropriate use of the AT modifier could not be definitively determined
                   through medical review for 9 percent of sampled claims, representing
                   $39 million.



 OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                          ii
E X E C U T I V E                        S U           M M A R Y


                   The medical reviewers indicated that treatment plans are an important
                   element in determining whether the chiropractic treatment was
                   active/corrective in achieving specified goals. Of the 76 percent of
                   records that reviewers indicated contained some form of treatment plan,
                   43 percent lacked treatment goals, 17 percent lacked objective
                   measures, and 15 percent lacked the recommended level of care.


                   RECOMMENDATIONS
                   Medicare continues to pay inappropriately for maintenance therapy
                   despite acknowledging this vulnerability in response to previous Office
                   of Inspector General work and subsequent efforts aimed at prevention.
                   Because of high error rates and poor documentation, we recommend
                   that CMS:
                   Implement and enforce policies to prevent future payments for
                   maintenance therapy. CMS can achieve this by implementing a new
                   modifier for chiropractic claims to indicate the start of a new treatment
                   episode and/or implementing a cap on allowed chiropractic claims.

                   Review treatment episodes rather than individual chiropractic claims
                   to strengthen the ability of the CERT to detect errors in chiropractic
                   claims. CMS should consider expanding the CERT review from a single
                   sampled claim to a treatment episode that includes all claims from the
                   initial visit to the sampled claim for a sample of (1) all chiropractic
                   claims or (2) chiropractic claims for beneficiaries receiving 12 or more
                   services per year because of their increased vulnerability. Under this
                   review, CMS would continue to sample claims in the current CERT
                   process but would also request associated claims prior to the sampled
                   claims to augment the medical review.
                   Ensure that chiropractic claims are not paid unless documentation
                   requirements are met. CMS can achieve this by requiring carriers,
                   whose responsibilities will transition to Medicare Administrative
                   Contractors (MAC) by 2011, to withhold payment on reviewed claims
                   when required documentation is absent or requiring carriers/MACs to
                   perform prepayment review of claims from chiropractors who repeatedly
                   fail to meet documentation requirements.
                   Take appropriate action regarding the undocumented, medically
                   unnecessary, and miscoded claims identified in our sample.




 OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                          iii
E X E C U T I V E                        S U           M M A R Y



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments on the report, CMS agreed with the second
                   recommendation and described actions it would take to address the
                   fourth recommendation. CMS did not indicate agreement or
                   disagreement with the first and third recommendations.

                   In response to the second recommendation, CMS indicated that it is now
                   reviewing 6 months of claims prior to sampled claims in response to a
                   recommendation from a prior OIG report. As a result, the CERT error
                   rate increased from 8.9 percent to 15.3 percent from 2005 to 2006. CMS
                   indicated it would have to conduct a cost-benefit analysis to determine
                   the utility of expanding this review to include claims beginning with the
                   first claim of the treatment episode. We encourage CMS to conduct this
                   analysis because the intent of CERT is to determine error rates, identify
                   programs at risk, and prevent future overpayments. OIG has
                   repeatedly found overpayments for maintenance therapy.

                   In response to the fourth recommendation, CMS stated that it would
                   instruct the contractors to take any necessary corrective actions with
                   respect to the sampled claims that this study identified as being in
                   error.

                   In response to the first recommendation, CMS indicated that the
                   objective data required to impose a national cap on the number of
                   chiropractic services does not currently exist. In response to the third
                   recommendation, CMS described the current process contractors use to
                   review provider claims with a greater likelihood of payment error, but
                   CMS indicated no change in future practice to prevent claims without
                   required documentation from being paid in error. We ask that in its
                   final management decision, CMS more clearly indicate whether it
                   concurs with our first and third recommendations and what steps, if
                   any, it will take to implement them.




 OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                          iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    Medicare inappropriately paid $178 million for chiropractic
                    claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                    Efforts to stop payments for maintenance therapy have been
                    largely ineffective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    Claims data lack information to identify maintenance therapy . . 15

                    Chiropractors often do not comply with Medicare documentation
                    requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    Agency Comments and Office of Inspector General Response . . . 19




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    A: Documentation Errors for Sampled Records . . . . . . . . . . . . . . 21

                    B: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 22

                    C: Sample Documentation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the extent to which:

                  (1)         chiropractic claims allowed in 2006 for beneficiaries receiving
                              more than 12 services from the same chiropractor were
                              appropriate,

                  (2)         controls ensured that chiropractic claims were not for maintenance
                              therapy,

                  (3)         claims data can be used to identify maintenance therapy, and

                  (4)         chiropractic claims were documented as required.


                  BACKGROUND
                  As required by the Social Security Act (the Act), Medicare pays only for
                  reasonable and necessary chiropractic services, which are limited to
                  active/corrective manual manipulations of the spine to correct
                  subluxations. 1 A chiropractic service “must have a direct therapeutic
                  relationship to the patient’s condition and provide reasonable
                  expectation of recovery or improvement of function.” 2 The Centers for
                  Medicare & Medicaid Services (CMS) “Medicare Benefit Policy Manual”
                  (the Manual) allows chiropractors an opportunity to produce functional
                  improvement or arrest or retard deterioration for subluxations within a
                  reasonable and generally predictable period of time. 3 When further
                  improvement cannot reasonably be expected from continuing care and
                  the services become supportive rather than corrective, the services are




                      1 Sections 1861(r) and 1862(a)(1)(A) of the Act, 42 U.S.C. § 1395x(r),
                  42 U.S.C. § 1395y(a)(1)(A)); 42 CFR § 410.21(b); CMS, “Medicare Benefit Policy Manual
                  [Internet Only Manual],” Pub. 100-02, chapter 15, § 240.1.2, defines subluxation as “a
                  motion segment, in which alignment, movement integrity, and/or physiological function of
                  the spine are altered although contact between joint surfaces remains intact.” Available
                  online at http://www.cms.hhs.gov/Manuals/IOM/list.asp. Accessed on July 30, 2008.
                      2 CMS, “Medicare Benefit Policy Manual [Internet Only Manual],” Pub. 100-02,
                  chapter 15, § 240.1.3. Available online at http://www.cms.hhs.gov/Manuals/IOM/list.asp.
                  Accessed on July 30, 2008.
                    3 CMS, “Medicare Benefit Policy Manual [Internet Only Manual],” Pub.100-02,
                  chapter 15, §240.1.5. Available online at http://www.cms.hhs.gov/Manuals/IOM/list.asp.
                  Accessed on September 29, 2008.



OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                             1
I N T R O D        U C T             I O N


                    considered maintenance therapy. 4 The Manual provides that
                    maintenance therapy is not considered a medically necessary
                    chiropractic service and is therefore not payable under Medicare. 5
                    Medicare Requirements for Chiropractic Claims
                    Chiropractic claims have specific billing requirements. Chiropractors
                    are limited to billing three Current Procedural Terminology (CPT) codes
                    under Medicare: 98940 (chiropractic manipulative treatment; spinal,
                    one to two regions), 98941 (three to four regions), and 98942 (five
                    regions). 6 When submitting manipulation claims, chiropractors must
                    use an acute treatment (AT) modifier to identify services that are
                    active/corrective treatment of an acute or chronic subluxation.
                    Although the title of the modifier indicates that it should be used only
                    for acute treatment, the Manual states that the modifier should be used
                    for acute or chronic treatment as long as it is considered
                    active/corrective. By using the AT modifier, chiropractors indicate that
                    the treatment provided is indeed active/corrective in nature. Medicare
                    should deny claims without the AT modifier as those services are
                    considered maintenance therapy. 7
                    The Manual outlines seven general documentation requirements for
                    initial visits and three general documentation requirements for
                    subsequent visits, as listed below. 8
                    Initial visit.
                           1. Subluxation(s) demonstrated by x-ray or physical examination
                              (physical examinations must demonstrate at least two of the four
                              following criteria: pain/tenderness, asymmetry/misalignment,

                        4 CMS, “Medicare Benefit Policy Manual [Internet Only Manual],” Pub 100-02,
                    chapter 15, § 30.5.B, defines maintenance therapy as “a treatment plan that seeks to
                    prevent disease, promote health, and prolong and enhance the quality of life; or therapy
                    that is performed to maintain or prevent deterioration of a chronic condition.” Available
                    online at http://www.cms.hhs.gov/Manuals/IOM/list.asp. Accessed on July 30, 2008.
                        5 Ibid. CMS, “Addressing Misinformation Regarding Chiropractic Services and
                    Medicare.” Available online at
                    http://www.cms.hhs.gov/MLNProducts/downloads/Chiropractors_fact_sheet.pdf. Accessed
                    on July 30, 2008.
                        6 American Medical Association, “Current Procedural Terminology,” 2006.
                        7 CMS, “Medicare Benefit Policy Manual [Internet Only Manual],” Pub. 100-02,
                    chapter 15, § 240.1.5. Available online at http://www.cms.hhs.gov/Manuals/IOM/list.asp.
                    Accessed on July 30, 2008.
                      8 CMS, “Medicare Benefit Policy Manual [Internet Only Manual],” Pub. 100-02,
                    chapter 15, § 240.1.2. Available online at http://www.cms.hhs.gov/Manuals/IOM/list.asp.
                    Accessed on July 30, 2008.



 OEI-07-07-00390    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                2
I N T R O D        U C T             I O N


                                    abnormal range of motion, and tissue/tone changes, one of which
                                    must be either asymmetry/misalignment or abnormal range of
                                    motion), 9
                           2. Diagnosis of subluxation(s),

                           3. Patient history (lists such items as symptoms and past health
                              history),

                           4. Description of present illness,

                           5. Treatment plan (includes a recommended level of care, specific
                              treatment goals, and objective measures to evaluate treatment
                              effectiveness),

                           6. Physical examination, and

                           7. Date of initial treatment. 10
                    Subsequent visit.
                           1. Patient history (lists such items as changes since last visit),

                           2. Physical examination, and

                           3. Documentation of treatment provided at each visit.

                    CMS Oversight
                    The Federal Managers Financial Integrity Act requires each executive
                    agency to establish and maintain internal controls for oversight,
                    including appropriate payment of claims. 11 CMS monitors the rates of
                    inappropriate payments for Medicare fee-for-service claims through the
                    Comprehensive Error Rate Testing (CERT) program. 12 At the time of
                    our review, CMS contracted with Medicare Part B carriers and program
                    safeguard contractors (PSC) to perform oversight, including program
                    integrity and data analysis activities. 13 CMS required that carriers and



                        9 Ibid.
                        10 Although seven requirements are listed here for the initial visit, only five are listed in
                    Appendix A. The medical reviewers analyzed the initial visit requirements 6 and
                    7 (physical exam and date of initial treatment) in conjunction with the initial visit
                    requirement 1 (subluxation demonstrated by x-ray or physical examination).
                        11 31 U.S.C. §§ 3512(b) and (c).
                        12 CMS also uses the Hospital Payment Monitoring Program to measure error rates for
                    fee-for-service claims. This program does not include chiropractic services.
                      13 Under Medicare Contracting Reform, responsibilities of carriers are transitioning to
                    Medicare Administrative Contractors (MAC). At the time of our review, none of the carriers
                    had completed the transition.



 OEI-07-07-00390    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                    3
I N T R O D        U C T             I O N


                    PSCs provide assurances that controls were in place to identify and
                    correct any areas of weakness in program operations. 14
                    CERT. CMS has established the CERT program to randomly sample
                    and review different types of service claims submitted to Medicare. The
                    2006 and 2007 CERT reports listed overall error rates for chiropractic
                    services of 16 percent and 11 percent, respectively. 15
                    To calculate error rates, CERT staff randomly select claims for services
                    each month from each contractor. CERT staff then request only the
                    medical record associated with the sampled claim from the provider that
                    submitted the claim. CERT staff do not request medical records related
                    to complete treatment episodes for sampled chiropractic claims.
                    Carrier responsibilities. Carriers’ primary function was to pay for
                    Medicare-covered services that are reasonable and necessary for eligible
                    individuals. Carriers may have implemented frequency-based controls
                    that generally fall into one of two categories: soft caps and hard caps.
                    With either type of cap, the carrier determined a frequency or dollar
                    threshold for the services that it would routinely allow during a
                    specified time period, usually 1 year. 16
                    •      Soft caps—Medicare carriers generally used soft caps to suspend
                           payment for any claims for service that were submitted exceeding a
                           threshold. Carriers requested additional documentation from the
                           chiropractors for claims exceeding the threshold. The claims were
                           paid if the documentation demonstrated that continued treatment
                           was medically necessary.

                    •      Hard caps—For certain services, carriers tracked the number of
                           services or expenditures per patient and did not pay for services
                           beyond an established threshold even if they were medically
                           necessary. Carriers did not use hard caps for chiropractic claims at
                           the time of our review, although hard caps existed in other
                           disciplines, such as physical therapy. Other health care payors use

                        14 CMS, “Medicare Financial Management Manual [Internet Only Manual],”
                    Pub. 100-06, chapter 7, § 30.1. Available online at
                    http://www.cms.hhs.gov/Manuals/IOM/list.asp. Accessed on July 30, 2008.
                        15 CMS, “Improper Medicare Fee-For-Service Payments Report - November 2006 Long
                    Report” and “Improper Medicare Fee-For-Service Payments Report - November 2007 Long
                    Report.” Available online at http://www.cms.hhs.gov/apps/er_report/index.asp. Accessed on
                    September 25, 2008.
                       16 OIG interviews with carrier staff conducted in association with “Chiropractic Services
                    in the Medicare Program: Payment Vulnerability Analysis” (OEI-09-02-00530).



 OEI-07-07-00390    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                               4
I N T R O D        U C T             I O N


                           hard caps for chiropractic claims. For example, many Federal
                           Employee Health Benefit plans impose frequency limits on
                           chiropractic claims ranging from 12 to 20 per year.
                    PSC responsibilities. A PSC can perform one or more of the following
                    payment safeguard functions: medical review, cost report audit, data
                    analysis, provider education, and fraud detection and prevention. 17
                    Medicare expects each PSC to:

                    •      prevent fraud by identifying program vulnerabilities;

                    •      proactively identify incidents of potential fraud that exist within its
                           service area and take appropriate action on each case;

                    •      investigate allegations of fraud made by beneficiaries, providers,
                           CMS, the Office of Inspector General (OIG), and other sources;

                    •      explore all available sources of fraud referrals in its jurisdiction;

                    •      initiate appropriate administrative actions to deny or to suspend
                           payments that should not be made to providers where there is
                           reliable evidence of fraud;

                    •      refer cases to OIG for consideration of civil and criminal prosecution
                           and/or application of administrative sanctions; and

                    •      refer any necessary provider and beneficiary outreach to the
                           education staff at the carrier. 18
                    Previous OIG Work
                    Previous OIG studies published in 1986, 1998, and 1999 found that
                    significant vulnerabilities existed in connection with chiropractic
                    claims, particularly concerning Medicare payments for maintenance




                        17 CMS, “Medicare Program Integrity Manual,” Pub 100-08, Change Request 1143.
                    Available online at http://www.cms.hhs.gov/Transmittals/Downloads/R12PIM.pdf. Accessed
                    on August 1, 2008. Under Medicare Contracting Reform, PSCs are responsible only for
                    benefit integrity work (CMS, “Medicare Administrative Contractor Workload
                    Implementation Handbook,” chapter 7, § 7.3.1. Available online at
                    http://www.cms.hhs.gov/MedicareContractingReform/downloads/
                    MACImplementationHandbook.pdf. Accessed on August 1, 2008.)
                      18 CMS, “Medicare Program Integrity Manual [Internet Only Manual],” Pub 100-08,
                    chapter 4, § 4.2.2. Available online at
                    http://www.cms.hhs.gov/manuals/downloads/pim83c04.pdf. Accessed on August 1, 2008.



 OEI-07-07-00390    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                           5
I N T R O D        U C T             I O N


                    therapy. 19 Each of these studies recommended frequency edits or caps
                    on the number of chiropractic claims allowed. In 2005, OIG conducted
                    an additional study that found that 40 percent of allowed chiropractic
                    claims in 2001 were for maintenance therapy and that when
                    chiropractors provide more than 12 services per year to a beneficiary,
                    the likelihood that some of those services were maintenance therapy
                    increased greatly. 20 OIG recommended that CMS require carriers or
                    PSCs to conduct routine service-specific reviews of chiropractic services
                    to identify improper payments and implement frequency-based controls
                    to target high-volume services for review. Additionally, OIG
                    recommended that CMS require carriers to educate chiropractors on
                    documentation requirements as outlined in the Manual.

                    In its written response to the OIG draft report, CMS concurred with
                    those OIG recommendations and indicated that it had taken a number
                    of steps to reduce chiropractic error rates, including targeted
                    educational efforts and service-specific medical reviews. CMS issued
                    three updates in 2004 to the Manual requiring providers to use the
                    AT modifier for all chiropractic claims when such services were for
                    active/corrective treatment. 21 CMS also acknowledged in its written
                    comments that because the CERT paid claims error rate is based on a
                    review of a beneficiary’s claim at a single point in time instead of claims
                    over time, the ability to detect services meeting the definition of
                    maintenance therapy is limited. 22


                    METHODOLOGY
                    We used multiple methods to achieve our objectives. The primary
                    method used was medical review of records supporting chiropractic
                    claims. We also interviewed CMS central office staff, carrier staff, and
                    PSC staff; analyzed historical claims data; and reviewed recent
                    chiropractic literature.


                        19 “Inspection of Chiropractic Services under Medicare” (OAI-05-86-00002); “Chiropractic

                    Care: Controls Used by Medicare, Medicaid, and Other Payers” (OEI-04-97-00490); and
                    “Utilization Parameters for Chiropractic Treatments” (OEI-04-97-00496).
                      20 “Chiropractic Services in the Medicare Program: Payment Vulnerability Analysis”
                    (OEI-09-02-00530).
                       21 CMS, “Medicare Benefit Policy Manual,” Pub. 100-02, Change Request 3063, released
                    in May 2004 was rescinded and replaced in September 2004 with Change Request 3449,
                    which was reissued in October 2004.
                      22 “Chiropractic Services in the Medicare Program: Payment Vulnerability Analysis”
                    (OEI-09-02-00530). See “Agency Comments” section.



 OEI-07-07-00390    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                               6
I N T R O D        U C T             I O N


                    Population Identification
                    We obtained Medicare-allowed claims data for chiropractic claims
                    submitted with procedure codes 98940, 98941, and 98942 and with an
                    AT modifier from CMS’s 2006 National Claims History Part B Carrier
                    file. This population contained 22,964,790 claims with a total allowed
                    amount of $762,148,017. We limited the population to claims for
                    beneficiaries who received more than 12 services from the same
                    chiropractor in 2006. 23 This population contained 13,827,382 claims
                    with a total allowed amount of $465,959,195.
                    Sample Selection
                    We selected a simple random sample of 200 allowed claims from the
                    population. Twelve claims were removed from the sample because of
                    ongoing OIG investigation work, leaving a final sample of 188 allowed
                    claims. We projected our results to the population from which we drew
                    the sample. Point estimates with confidence intervals for selected
                    statistics are contained in Appendix A.
                    Medical Review
                    We contracted with a medical review contractor to assist us in data
                    collection, selecting medical reviewers, and reviewing medical records.
                    The medical review contractor sent up to three medical record request
                    letters (the last request via certified mail) to each provider for the
                    sampled claims at predetermined time intervals. The letters requested
                    all medical records from each chiropractor for the beneficiary from the
                    first visit through the end of the treatment episode involving the
                    sampled claim, not just records to support the sampled claim. The
                    contractor conducted a minimum of three follow-up telephone contacts
                    with providers who failed to respond to mailed requests. The contractor
                    successfully contacted all chiropractors for all the sampled claims;
                    however, chiropractors did not respond with requested documentation
                    for seven sampled claims. 24
                    We worked with the medical review contractor to select chiropractors
                    with previous experience in reviewing chiropractic services provided to
                    Medicare beneficiaries to serve as medical reviewers for this study.
                    These medical reviewers determined whether each sampled claim was

                      23 As previously stated, recent OIG work determined that when chiropractors provide
                    more than 12 services per year to a beneficiary, the likelihood that some of those services
                    constituted maintenance therapy increased greatly.
                       24 The chiropractors failing to comply with our request for information have been
                    referred to CMS and OIG’s Office of Investigations for appropriate action.



 OEI-07-07-00390    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                  7
I N T R O D        U C T             I O N


                    active/corrective treatment or maintenance therapy, the extent to which
                    chiropractors supported their use of the AT modifier with proper
                    documentation indicating active/corrective treatment, whether claims
                    were coded properly, and whether documentation met the Manual
                    requirements. For each treatment episode, the medical reviewers
                    identified the initial visit if the practicing chiropractor failed to specify
                    the initial visit in their submission of documentation. The medical
                    reviewers then reviewed the initial visit and subsequent visits (if
                    relevant) to determine whether documentation requirements were met
                    and whether maintenance therapy was provided.

                    We did not automatically exclude records from our medical review when
                    chiropractors failed to comply fully with documentation requirements.
                    For example, even if not all visits included patient histories and
                    descriptions of present illnesses, which are required by Medicare, the
                    records were still reviewed. The services rendered on those days were
                    not automatically deemed to be maintenance therapy by the medical
                    reviewers because documentation was missing.

                    We defined inappropriate payments as those made for sampled claims
                    that the medical reviewers identified as maintenance therapy,
                    miscoded, or undocumented. 25 We then projected our results to the
                    population of 13.8 million chiropractic claims representing those claims
                    for beneficiaries receiving more than 12 services in a year. This may
                    have caused us to underestimate error rates for both dollars and
                    services because the weight of estimates was divided by 200 rather than
                    188 (because of 12 cases under review by OIG). Upcoding and
                    downcoding were determined by the number of regions manipulated as
                    supported by the documentation compared to the number of regions
                    manipulated as indicated by the submitted claims. The net differences
                    were reported (i.e., adding or subtracting the amount for the correct
                    code from the amount allowed for these claims).
                    Interviews and Documentation Collection
                    We conducted structured interviews with and collected documentation
                    from CMS central office staff, carrier staff, and PSC staff to determine
                    how they ensured that claims with the AT modifier were not
                    maintenance therapy. CMS interviews included questions about


                       25 Claims were undocumented if the provider did not provide the requested
                    documentation or if the records did not document that any service was rendered on the date
                    claimed.



 OEI-07-07-00390    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                             8
I N T R O D        U C T             I O N


                    documentation requirements, provider education and outreach, and
                    Medicare policies. The carrier and PSC staff interviews included
                    questions about local coverage determination policies, provider
                    education and outreach, coordination of oversight, medical review
                    strategies, and resources. When clarification was necessary, we
                    obtained documentation of local coverage determination policies,
                    Internet-based provider education materials, and other outreach
                    materials. Additionally, we reviewed CERT reports from 2003–2007 to
                    examine sample methodologies and error rates for chiropractic services.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-07-00390    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                           9
Δ     F I N D I N G S

 Medicare inappropriately paid $178 million for                In 2006, Medicare inappropriately
      chiropractic claims in 2006, representing                paid a total net $178 million (out
                                                               of $466 million) for chiropractic
47 percent of claims meeting our study criteria
                                                               claims for services that were
                         maintenance therapy ($157 million), miscoded ($11 million), or
                         undocumented ($46 million). These claims represent 47 percent of all
                         allowed chiropractic claims that met the study criteria of chiropractors
                         providing more than 12 services to the same beneficiary during 2006.
                         Seventeen percent of the reviewed claims, representing $36 million, had
                         multiple errors. Table 1 groups the improperly paid claims projected to
                         the population.
                         Table 1: Inappropriately Paid Chiropractic Claims in 2006
                                                                                                            Claims
                    Type of Error                                                       Claims                         Allowed Amount
                                                                                                      (percentage)

                    Maintenance Therapy

                       Did not accurately reflect
                                                                                   4,217,352                     32        $141,651,849
                       active/corrective treatment

                       Did not provide a reasonable
                       expectation of recovery or                                  3,940,804                     30        $134,174,001
                       functional improvement

                    (Overlapping errors for maintenance
                                                                                  (3,525,983)                   (27)     ($119,136,032)
                    therapy)

                        Total maintenance therapy                                  4,632,173                    36*       $156,689,819*

                    Miscoded

                       Upcoded                                                     1,728,423                     13         $17,896,089

                       Downcoded                                                        553,095                   4        ($6,534,821)

                        Total miscoded                                             2,281,518                    18*    $11,361,268 (net)

                    Undocumented

                       Nonresponse                                                      483,958                   4         $14,078,349

                       Claim lacked documentation of
                                                                                        898,780                   7         $31,626,679
                       treatment

                        Total undocumented                                         1,382,738                     11         $45,705,028

                        Total errors (gross)                                       8,296,429                     64       $213,756,116*

                    (Overlapping errors)                                          (2,212,381)                   (17)      ($35,579,928)

                        Total errors (net)                                         6,084,048                     47       $178,176,188*

                    Source: OIG medical review of 2006 chiropractic services.
                    *Note: Numbers do not sum as expected because of rounding.

  OEI-07-07-00390        I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                                       10
F   I N D I N G        S


                      Medicare inappropriately paid $157 million for maintenance therapy
                      The medical reviewers identified 36 percent of the chiropractic claims
                      allowed in 2006 that met the study criteria, totaling $157 million, as
                      maintenance therapy, for which Medicare does not pay. We found that
                      25 percent of the reviewed treatment episodes that included
                      maintenance therapy were identified as maintenance at the initial visit.
                      This indicates that for these entire treatment episodes, no functional
                      improvement could have been expected. All of the inappropriate
                      payments for maintenance therapy reflect the medical reviewers’
                      determination based on their review of medical records, not insufficient
                      documentation. When certain required documentation was unavailable,
                      the medical reviewers relied on other available documentation (such as
                      objective measures of treatment effectiveness over time) to determine
                      the appropriateness of the AT modifier.

                      We could identify no relationship between the area of the spine
                      diagnosed with a subluxation(s) and the incidence of maintenance
                      therapy. In addition, we did not identify any significant correlations
                      between the incidence of maintenance therapy and a given diagnosis.
                      We identified 73,936 claims amounting to $2.4 million that were paid
                      without the AT modifier being listed as the primary or secondary
                      modifier.
                      Medicare inappropriately paid a net $11 million for miscoded claims
                      The medical reviewers identified 18 percent of the chiropractic claims
                      allowed in 2006 that met the study criteria, totaling $79 million in
                      allowed claims, as spinal manipulation claims that reflected the
                      incorrect number of regions of the spine. The net cost to the program
                      was $11 million. Coding errors generally involved upcoding, which is
                      billing a more complex and higher paid service than the one documented
                      in the medical record. Approximately 41 percent of allowed claims in
                      our sample for spinal manipulation on five regions (CPT code 98942)
                      were upcoded, and 15 percent of allowed claims for manipulation on
                      three to four regions (CPT code 98941) in our sample were upcoded.
                      The medical reviewers noted:
                                  [M]any records . . . did not meet the Medicare guidelines in
                                  determining a chiropractic subluxation for each area of
                                  the spine treated. The records would indicate a problem
                                  in one area of the spine which was examined, but indicated
                                  treatment to three to four areas of the spine and charged
                                  according to procedure without correlation to diagnosis.


    OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                             11
F   I N D I N G        S


                      Similarly, carriers noted trends in upcoding for chiropractic claims
                      based on targeted medical review in their jurisdictions. Staff from one
                      carrier explained that in one specific geographic area, “Three to four
                      years ago we looked at distribution among three codes, looking at those
                      using 98942 frequently. The percentage of abuse with 98942 was
                      80 percent or greater.”
                      Medicare inappropriately paid $46 million for undocumented claims
                      Eleven percent of claims allowed in 2006 that met the study criteria,
                      totaling $46 million, were undocumented. The chiropractors for
                      7 percent of claims provided us with records that did not document that
                      any service was rendered on the date claimed. Additionally, despite
                      repeated requests, chiropractors did not provide the documentation
                      related to 4 percent of the sampled claims. In both cases, claims that
                      lack sufficient documentation to show that care was provided do not
                      meet Medicare requirements.


                                                                CMS, carriers, and PSCs use a
            Efforts to stop payments for maintenance
                                                                number of strategies to deter
                 therapy have been largely ineffective
                                                                inappropriate payments for
                      maintenance therapy, including use of the AT modifier to indicate
                      active/corrective treatment, provider education, frequency-based control
                      edits (caps), and focused medical review. Despite these efforts, carriers
                      and PSCs continue to report high error rates for chiropractic claims.
                      The AT modifier does not prevent inappropriate payments for maintenance
                      therapy
                      Table 2 demonstrates that the number of chiropractic claims submitted
                      and allowed changed little since the requirement of the AT modifier for
                      active/corrective treatment. Because the 2005 OIG study identified
                      40 percent of all 2001 allowed chiropractic claims as maintenance
                      therapy, there should have been a decrease—not an increase—in the
                      number of allowed claims if CMS’s AT modifier requirement effectively
                      prevented inappropriate payments for maintenance therapy.
                      Instead, allowed claims increased 3.7 million, or 19 percent, between
                      2003 (1 year before the AT modifier guidance) and 2005 (the year after
                      the AT modifier guidance). The AT modifier was used on 99.8 percent of
                      allowed chiropractic claims in 2005, up from 6.1 percent in 2003.




    OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                             12
F   I N D I N G          S


                        Table 2: Estimates of Chiropractic Claims Volume 2001–2006

                                                                  Mean Claims                               Percentage of   Percentage of
                      Calendar            Submitted                 Submitted                  Allowed     Allowed Claims      Submitted
                      Year                   Claims                        per                  Claims            With AT         Claims
                                                                   Beneficiary                                   Modifier        Allowed

                      2001               19,531,700                               10.5       15,920,500               6.2            81.5
                      2002               21,220,800                               10.6       18,111,800               5.9            85.3
                      2003               22,521,600                               10.9       19,407,300               6.1            86.2
                      2004               25,151,800                               11.6       21,200,000              34.6            84.3
                      2005               26,121,100                               11.5       23,075,800              99.8            88.3
                      2006               25,845,478                               11.3       22,964,790              99.7            88.9
                      Source: OIG analysis of estimates from the 1-percent beneficiary sample Part B claims file, 2008.


                        Carrier staff, PSC staff, and medical reviewers for this study agreed
                        that the AT modifier did not prevent inappropriate payments for
                        maintenance therapy. Carrier staff readily indicated, “By putting an
                        AT modifier on a claim, chiropractors are getting paid, and they know
                        they will get paid.” During its review of trends in chiropractic claims in
                        excess of 12 claims per year, one PSC identified two chiropractors with
                        100-percent error rates. Staff from another PSC investigating
                        suspicious chiropractic claims said, “from a [targeted] medical review
                        standpoint, we see lots of chiropractors billing with the AT modifier
                        when not appropriate. I would say at least 95 percent of AT modifier
                        use is wrong. It is a big issue.” Further, the medical reviewers for this
                        study noted that the requirement for the AT modifier did not appear to
                        affect chiropractic billing patterns.
                        Provider education does not prevent inappropriate payments for
                        maintenance therapy
                        In response to comments from the chiropractic industry indicating that
                        the definition of maintenance therapy was confusing, CMS revised the
                        definition of maintenance therapy in the Manual before our review
                        period. This revision was made in addition to requiring the AT modifier
                        to indicate active/corrective treatment. CMS allowed carriers flexibility
                        in educating chiropractors on the revised Medicare requirements.

                        Chiropractors continue to submit claims for maintenance therapy with
                        the AT modifier even though all 16 carriers indicated that they provided
                        education to chiropractors on the correct use of the AT modifier.
                        Fourteen carriers reported developing educational programs or
                        publishing important information on their Web sites regarding
                        appropriate AT modifier usage. Ten carriers volunteered that they
                        provided education at conferences or other seminars, and five


    OEI-07-07-00390     I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                                      13
F   I N D I N G        S


                      volunteered that they used collaboration with chiropractic associations
                      to increase awareness and promote the appropriate use of the
                      AT modifier. Eight carriers volunteered that they published material or
                      manuals to send to chiropractors.
                      Use of frequency-based controls does not prevent all inappropriate
                      payments for maintenance therapy; carriers welcome stricter measures
                      Soft caps. At the time of our review, half of the carriers used soft caps
                      for chiropractic claims based on the frequency of services for a
                      particular diagnosis as their primary means of limiting inappropriate
                      payments. Staff from one carrier explained, “Diagnoses are split into
                      different categories and different numbers of services are permitted.
                      This [practice] originated many years ago and became available as a
                      ‘model policy’ to all carriers.” Staff from another carrier noted in
                      reference to their postpayment review process, “As we continue to do
                      complex medical review, we continue to deny about 90 percent of
                      reviewed claims.” One carrier reported difficulty in implementing an
                      internal frequency threshold. After the carrier adjusted its frequency
                      threshold, some chiropractors changed their billing behavior by
                      submitting claims up to the threshold to avoid review.
                      Hard caps. Although 4 carriers had hard caps for chiropractic claims in
                      the past, none of the 16 carriers currently have them. Carrier staff
                      explained that they no longer have hard caps because of guidance from
                      CMS and opposition from the chiropractic community. A CMS staff
                      member noted, “Years ago, some [carriers] had auto-deny limits and one
                      by one, they got rid of them because of political pressure.” Although
                      CMS has hard caps in other disciplines, staff indicated that the lack of
                      clinical evidence would make establishing frequency thresholds for
                      chiropractic claims difficult. However, staff from 10 carriers indicated
                      that they would welcome hard caps on chiropractic claims. Similarly,
                      the 2005 OIG report noted that six carriers would like hard caps.
                      PSCs’ use of focused medical review does not prevent inappropriate
                      payments for maintenance therapy
                      PSCs based medical review strategies and processing of referrals on
                      their individual program integrity priorities, which are generally the
                      service areas with the greatest potential for overpayment recovery.
                      Though chiropractors submitted claims for more than $1 billion in 2006,
                      individual chiropractic claims may be considered small. The average
                      allowed charge for a chiropractic claim in 2006 was only $33, while the
                      same for a physician office visit was $62. Staff from a PSC responsible
                      for program integrity in five major cities across 16 States explained,
    OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                             14
F   I N D I N G        S


                      “We have to prioritize our work by the most egregious crimes. We don’t
                      look at chiropractic claims and the AT modifier specifically because the
                      money is not [significant when reviewing] individual providers.”



    Claims data lack initial visit dates for treatment            To appropriately identify
                                                                  active/corrective treatment
          episodes, hindering the identification of
                                                                  and thereby distinguish it
                                maintenance therapy
                                                                  from maintenance therapy, it
                      is useful to identify the start of a new treatment episode. Because
                      claims data do not indicate when a treatment episode began, we asked
                      sampled chiropractors and the medical reviewers to identify when an
                      episode began and ended. Overall, only 50 percent of all treatment
                      episodes remained active/corrective throughout the treatment episode.
                      For the remaining treatment episodes that included maintenance, the
                      mean number of claims between the initial visit and the first visit
                      determined to be maintenance therapy was 14, with the median number
                      being 9 claims. Additionally, 78 percent of those treatment episodes
                      that became maintenance therapy did so by the 20th visit.
                      The 2005 OIG study found that the likelihood of services being
                      medically unnecessary increased to approximately 67 percent for claims
                      between the 13th and 24th visit during a calendar year and 100 percent
                      for claims beyond the 24th visit. Combined with our present findings,
                      these results indicate that the greater the number of visits after the
                      initial visit, the greater the likelihood that a claim will be for
                      maintenance therapy. However, chiropractic claims lack an indicator to
                      reflect which visits are the initial visits for treatment episodes.

                      The initial visit for treatment episodes may not always be a
                      beneficiary’s first visit to a chiropractor. A beneficiary may experience a
                      recurrence or an exacerbation of a previously treated condition that may
                      necessitate the start of a new treatment episode. 26 One reviewer
                      explained, “Because Medicare covers patients that are predominantly
                      65 years or older, the chiropractor is often faced with chronic or
                      recurrent conditions. The AT modifier, when applied appropriately,



                          26 According to carriers’ local coverage determinations, a recurrence is a return of

                      symptoms from a previously treated condition that has been quiescent for 30 or more days.
                      An exacerbation is a temporary, marked deterioration of the patient’s condition because of
                      an acute flareup of the condition being treated.



    OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                 15
F   I N D I N G         S


                       should indicate expectation of functional improvement, regardless of the
                       [chronic nature] or redundancy of the problem.”

                       Currently, the expectation of functional improvement can be determined
                       only from a complete medical review of the treatment episode. In
                       contrast, the CERT paid claims error rate used by CMS is based on a
                       review of a single claim, which limits its ability to detect maintenance
                       therapy and may underestimate errors in claims for chiropractic
                       services.



                                                                 Separate from the completely
       Chiropractors often do not comply with the
                                                                 undocumented claims previously
             Manual documentation requirements
                                                                 discussed as errors in the first
                       finding of this study, 83 percent of chiropractic claims failed to meet one
                       or more of the documentation requirements. Consequently, the
                       appropriate use of the AT modifier could not be definitively determined
                       through medical review for 9 percent of sampled claims, representing
                       $39 million. See Table 3 for summary information regarding the extent
                       to which records for the sampled claims did not meet the documentation
                       requirements for initial visits and subsequent visits and Appendix B for
                       detailed information regarding specific documentation requirements not
                       met for sampled claims.
                       Table 3: Documentation Errors

                      Documentation Requirements Not Present in Record                                        Percentage

                       Initial Visit

                      1. Subluxation demonstrated by x-ray or physical exam                                          11

                      2. Diagnosis of subluxation                                                                    13

                      3. Complete patient history                                                                    70

                      4. Complete description of present illness                                                     66

                      5. Complete treatment plan                                                                     63

                       Subsequent Visits

                      1. Complete patient history                                                                    29

                      2. Complete physical exam                                                                      43

                      3. Documentation of treatment provided                                                         15

                      Source: OIG medical review of year 2006 services by practicing chiropractors, 2008.




    OEI-07-07-00390    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                           16
F   I N D I N G        S


                      Chiropractors provided documentation that varied widely.
                      Documentation provided by chiropractors ranged from comprehensive
                      standardized forms to “travel cards,” which include no more than simple
                      checkboxes. 27 At times, handwritten notes were illegible and
                      computer-generated notes were unchanged from one visit to the next.

                      Carrier staff indicated that documentation for chiropractic claims was
                      poor. Staff at one carrier stated, “Several providers blatantly tell us
                      that they don’t have time to document the way we want.” Staff at
                      another carrier stated that chiropractors do not agree with
                      documentation requirements and believe them to be too time
                      consuming.
                      Documentation for treatment plans was insufficient
                      The medical reviewers indicated that treatment plans are an important
                      element in determining whether the chiropractic treatment was
                      active/corrective in achieving specified goals. The goal may change
                      throughout the treatment episode, but it should be documented in the
                      medical record to demonstrate active/corrective treatment. Of the
                      76 percent of records that reviewers indicated contained some form of
                      treatment plan, 43 percent lacked treatment goals, 17 percent lacked
                      objective measures, and 15 percent lacked the recommended level of
                      care. A staff member from one carrier explained that:

                                  When reviewing a specific service, we often don’t get a
                                  treatment plan if it was created at the first visit for the
                                  episode-this is no more than what we ask from [medical
                                  doctors]. The general trend is that [the patient will] be
                                  treated for several months, three to four times per month,
                                  but there’s no documentation of a treatment plan or any
                                  goals.

                      One of the medical reviewers explained that it is common for
                      chiropractors to have treatment plans that include frequency, duration,
                      and goals but that these treatment plans often are verbal and
                      consequently not always documented. Another medical reviewer
                      indicated, “In my 29 years of practice, I rarely saw documentation of a
                      plan which included frequency, duration, goals, and objective measures.
                      While these guidelines are in the [Medicare] Manual, they apparently
                      have not been incorporated into the profession.”


                          27 See Appendix C for examples of documentation for chiropractic services.




    OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                             17
Δ    R E C O M M E N D A T I O N S



                  Medicare continues to pay inappropriately for maintenance therapy
                  despite acknowledging this vulnerability in response to previous OIG
                  work and subsequent efforts aimed at prevention. In 2006, Medicare
                  inappropriately paid $178 million for chiropractic claims, representing
                  47 percent of all allowed chiropractic claims that met the study criteria.
                  Claims for maintenance therapy accounted for $157 million of these
                  inappropriately paid claims. Efforts to prevent inappropriate payments
                  for maintenance therapy have been largely ineffective, and the lack of
                  initial visit dates in claims data hinders the ability to identify
                  maintenance therapy. The expectation of functional improvement can
                  be determined only from a complete medical review of the treatment
                  episode. In contrast, the CERT paid claims error rate used by CMS is
                  based on a review of a single claim, which limits its ability to detect
                  maintenance therapy and may underestimate errors in claims for
                  chiropractic services. Further, chiropractors often do not comply with
                  the Manual documentation requirements.

                  Therefore, we recommend that CMS:
                  Implement and Enforce Policies To Prevent Future Payments for
                  Maintenance Therapy
                  CMS can achieve this through implementing (1) a new modifier for
                  chiropractic claims to indicate the start of a new treatment episode so
                  that carriers/Medicare Administrative Contractors (MAC) can identify
                  aberrant treatment patterns through claims data and/or (2) a cap on
                  allowed chiropractic claims based on recommendations from a
                  consortium of clinical providers.
                  Review Treatment Episodes Rather Than Individual Chiropractic Claims To
                  Strengthen the Ability of the CERT To Detect Errors in Chiropractic Claims
                  CMS should consider expanding the CERT review from a single
                  sampled claim to a treatment episode that includes all claims from the
                  initial visit to the sampled claim for a sample of (1) all chiropractic
                  claims or (2) chiropractic claims for beneficiaries receiving 12 or more
                  services per year because of their increased vulnerability. Under this
                  review, CMS would continue to sample claims in the current CERT
                  process but would also request associated claims before the sampled
                  claims to augment the medical review.




OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                         18
R   E C O        M M E N D A T                          I O N                  S


                      Ensure That Chiropractic Claims Are Not Paid Unless Documentation
                      Requirements Are Met
                      CMS can achieve this by requiring carriers/MACs to (1) withhold
                      payment on reviewed claims when required documentation is absent or
                      (2) perform prepayment review of claims from chiropractors who
                      repeatedly fail to meet documentation requirements.
                      Take Appropriate Action Regarding the Undocumented, Medically
                      Unnecessary, and Miscoded Claims Identified in Our Sample
                      We will forward information on these claims to CMS in a separate
                      memorandum.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its written comments on the report, CMS agreed with the second
                      recommendation and described actions it would take to address the
                      fourth recommendation. CMS did not indicate agreement or
                      disagreement with the first and third recommendations.

                      In response to the second recommendation, CMS indicated that it
                      recently began reviewing 6 months of claims prior to sampled claims in
                      response to a recommendation from a prior OIG report. The CERT
                      program reported an increased error rate from 8.9 percent in 2005 to
                      15.3 percent in 2006 because of this change. However, this new
                      process allows for the review of claims only up to 6 months prior to
                      sampled claims and may not include the entire chiropractic treatment
                      episode. CMS indicated it would have to conduct a cost-benefit
                      analysis to determine the utility of expanding this review to include
                      claims beginning with the first claim of the treatment episode. CMS
                      indicated that expanding the review would cost an additional
                      $150,000–$200,000 and would increase the burden on providers, who
                      would need to furnish additional medical documentation. We encourage
                      CMS to conduct this analysis because the intent of CERT is to
                      determine error rates, identify programs at risk, and prevent future
                      overpayments. OIG has repeatedly found overpayments for
                      maintenance therapy.

                      In response to the fourth recommendation, CMS stated that it would
                      instruct the contractors to take any necessary corrective actions with
                      respect to the sampled claims that this study identified in error.

                      In response to the first recommendation, CMS indicated that the
                      objective data required to impose a national cap on the number of

    OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                             19
R   E C O        M M E N D A T                          I O N                  S

                      chiropractic services does not currently exist. CMS stated that it will
                      review any research studies as they become available. CMS also stated
                      it will consider implementing an additional modifier after it works
                      through the policy and operational implications. We encourage CMS to
                      ensure that such studies and policy reviews are conducted.

                      In response to the third recommendation, CMS described the current
                      process contractors use to review provider claims with a greater
                      likelihood of payment error. However, CMS indicated no change in
                      future practice to prevent claims without required documentation from
                      being paid in error.

                      We ask that in its final management decision, CMS more clearly
                      indicate whether it concurs with our first and third recommendations
                      and what steps, if any, it will take to implement them.

                      The full text of CMS’s comments can be found in Appendix D.




    OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                             20
      Δ             A P P E N D I X                                       ~           A
                    Table A-1: Documentation Errors for Sampled Records




                                                                                                                       Point Estimate   95-Percent Confidence
Documentation Requirements Not Present                                                                            n     (percentage)                  Interval
Initial Visit
1. Subluxation demonstrated by x-ray or physical exam                                                           188               11                     7–17
2. Diagnosis of subluxation                                                                                     188               13                     9–19
3. Complete patient history                                                                                     188               70                    63–77
   Any patient history                                                                                          188                6                     3–11
  • symptoms causing patient to seek treatment                                                                  176                2                      0–5
  • family history, if relevant                                                                                 176                2                      1–6
  • past health history                                                                                         176               40                    33–48
  • mechanism of trauma                                                                                         176               29                    22–36
  • quality and character of symptoms                                                                           176               13                     8–19
  • onset, duration, intensity, frequency, location, and radiation of symptoms                                  176               22                    16–29
  • aggravating or relieving factors                                                                            176               41                    34–49
  • prior interventions, treatments, medications, and secondary complaints                                      176               42                    35–50
4. Complete description of present illness                                                                      188               66                    59–73
   Any description of present illness                                                                           188                7                     4–12
  • mechanism of trauma                                                                                         175               29                    23–36
  • quality and character of symptoms                                                                           175               14                     9–20
  • onset, duration, intensity, frequency, location, and radiation of symptoms                                  175               22                    16–29
  • aggravating or relieving factors                                                                            175               40                    33–48
  • prior interventions, treatments, medications, and secondary complaints                                      175               43                    36–51
  • symptoms causing patient to seek treatment                                                                  175                2                      0–5
5. Complete treatment plan                                                                                      188               63                    55–70
   Any treatment plan                                                                                           188               12                     8–18
  • recommended level of care                                                                                   142               15                     9–22
  • specific treatment goals                                                                                    142               43                    35–52
  • objective measures to evaluate effectiveness                                                                142               17                    11–24
Subsequent Visits
1. Complete patient history                                                                                     174               29                    23–37
   Any patient history                                                                                          174               24                    18–31
  • review of chief complaint                                                                                   146                7                     3–12
  • changes since last visit                                                                                    146                9                     5–15
  • system review, if relevant                                                                                  146                0                      0–3
2. Complete physical exam                                                                                       174               43                    35–50
   Any physical exam                                                                                            174               22                    16–29
  • exam of area of spine involved in diagnosis                                                                 149                3                      1–8
  • assessment of change in patient condition since last visit                                                  149               15                     9–22
  • evaluation of treatment effectiveness                                                                       149               28                    21–35
3. Documentation of treatment provided                                                                          188               15                    11–21
Source: Office of Inspector General (OIG) analysis of chiropractic claims data, 2008.


                OEI-07-07-00390          I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                                                        21
       Δ            A P P E N D I X                                        ~            B

                    Table B-1: Point Estimates and Confidence Intervals for Reported Statistics

                                                                                                                     Point Estimate        95-Percent Confidence
Description
                                                                                                                            (n=188)                      Interval

Sampled service did not accurately reflect active/corrective treatment (dollars)                                       $141,651,849     $111,533,439–$171,770,260

Sampled service did not accurately reflect active/corrective treatment (services)                                         4,217,352            3,339,500–5,095203

Sampled service did not accurately reflect active/corrective treatment (percent)                                                   32                       26–39

Sampled service did not provide a reasonable expectation of recovery (dollars)                                         $134,174,001     $104,191,663–$164,156,339

Sampled service did not provide a reasonable expectation of recovery (services)                                           3,940,804           3,078,963–4,802,645

Sampled service did not provide a reasonable expectation of recovery (percent)                                                     30                       24–37

Overlapping errors for maintenance (dollars)                                                                           $119,136,032      $90,389,067–$147,882,997

Overlapping errors for maintenance (services)                                                                             3,525,983           2,692,302–4,359,663

Overlapping errors for maintenance (percent)                                                                                       27                       21–34

Total maintenance (dollars)                                                                                            $156,689,819     $125,616,059–$187,763,579

Total maintenance (services)                                                                                              4,632,173           3,734,157–5,530,189

Total maintenance (percent)                                                                                                        36                       29–43

Upcoded (dollars)                                                                                                       $17,896,089       $10,927,509–$24,864,670

Upcoded (services)                                                                                                        1,728,423           1,091,748–2,365,098

Upcoded (percent)                                                                                                                  13                          8–18

Downcoded (dollars)                                                                                                      (6,534,821)     ($1,876,340)–(11,193,301)

Downcoded (services)                                                                                                        553,095              174,622–931,569

Downcoded (percent)                                                                                                                 4                           1–7

Sampled service was coded at the wrong level (net dollars)                                                              $11,361,268        $2,693,506–$20,029,031

Sampled service was coded at the wrong level (services)                                                                   2,281,518           1,568,210–2,994,826

Sampled service was coded at the wrong level (percent)                                                                             18                       12–23

Allowed claims miscoded (gross dollars)                                                                                 $79,443,841      $53,932,302–$104,955,380

Undocumented because of nonresponse (dollars)                                                                           $14,078,349        $3,667,275–$24,489,422

Undocumented because of nonresponse (services)                                                                              483,958              128,947–838,970

Undocumented because of nonresponse (percent)                                                                                       4                          1–6

Undocumented because of claim lacking documentation (dollars)                                                           $31,626,679       $14,572,367–$48,680,992

Undocumented because of claim lacking documentation (services)                                                              898,780             423,067–1,374,493

Undocumented because of claim lacking documentation (percent)                                                                       7                          3–11

Total undocumented services (dollars)                                                                                   $45,705,028       $26,193,289–$65,216,768

Total undocumented services (services)                                                                                    1,382,738             804,611–1,960,866

Total undocumented services (percent)                                                                                              11                          6–15

Source: Office of Inspector General (OIG) analysis of chiropractic claims data, 2008.



               OEI-07-07-00390              I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                                                          22
            A    P    P E N D             I X              ~           B


             Table B-1: Point Estimates and Confidence Intervals for Reported Statistics, continued


                                                                                                                                Point       95-Percent Confidence
Description                                                                                                          n
                                                                                                                             Estimate                     Interval

Total errors - gross (dollars)                                                                                     188   $213,756,116    $171,388,169–$256,124,062

Total errors - gross (services)                                                                                    188       8,296,429         6,840,140–9,752,719

Total errors - gross (percent)                                                                                     188             64                          53–75

Overlapping errors (dollars)                                                                                       188     $35,579,928     $17,625,483–$53,534,373

Overlapping errors (services)                                                                                      188       2,212,381         1,432,138–2,992,624

Overlapping errors (percent)                                                                                       188             17                          11–23

Total errors - net (dollars)                                                                                       188   $178,176,188    $146,394,603–$209,957,773

Total errors - net (services)                                                                                      188       6,084,048         5,148,437–7,019,659

Total errors - net (percent)                                                                                       188             47                          40–54

Services that were maintenance at the initial visit (percent)                                                      56*             25                       14–38

Claims coded at 98941 that were upcoded (percent)                                                                  118             15                          9–23

Services that remained active/corrective throughout treatment episode (percent)                                    181             50                          43–58

Number of claims from initial visit to maintenance therapy (mean)                                                  56*             14                           9–19

Number of claims from initial visit to maintenance therapy (median)                                                56*              9                          7–11
Appropriate use of acute treatment (AT) modifier could not be determined
                                                                                                                   181              9                           5–14
(percent)
Appropriate use of AT modifier could not be determined (dollars)                                                   181     $38,780,967     $20,119,585–$57,442,349

Claim failed to meet one or more of the documentation requirements (percent)                                       188             83
                                                                                                                                                               77–88
Record includes a treatment plan (percent)                                                                         188             76
                                                                                                                                                               69–82
Source: OIG analysis of chiropractic claims data, 2008.

*Because some treatment episodes last years, some maintenance claims were excluded because we were unable to determine when the initial visit occurred.




                OEI-07-07-00390             I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                                                          23
Δ      A P P E N D I X                                 ~            C

                  Figure C-1: Sample Documentation—Travel Card




OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                         24
A   P   P E N D       I X            ~           C




                      Figure C-2: Sample Documentation—Standardized Form




    OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                             25
Δ         A P P E N D I X                                    ~            D

                                        Agency Comments


 /"~vo""".",,


{A4-
....>~
    1~"oOut
                DEPARTME T OF HEALTH & HUMAN SERVICES                                                          Cenlers lor Medicare & Medicaid Services


                                                                                                               200 Independence Avenue SW
                                                                                                               Washington, DC 20201




                DATE:           MAR 0 t 2~OO
                TO:            Daniel R. Levinson
                               lnspector General

                FRO             harlene Prizzera    /"' /
                               Acting Administrator ~
                                                          , .                                      :J-ti ~ ~J.-
                SUBJECT:       Officc of Inspector General (DIG) Draft Report: "Inappropriate Mcdicare
                               Payments for Chiropractic ervices," (OEI-07-07-00390)


                Thank you for the opportunity to commcnt on the OIG draft rcport entitled,
                "Inappropriate Medical' Payments for hiropractic Services." , he Centers for Mcdicare
                & Medicaid Service (eMS) appreciates the time and resources the DIG has inve ted to
                research and report on thi issue. Based on a 2005 DIG report on this ame topic CM is
                pleased to rcport that wc made appropriate change to the currcnt claims processing
                opcrations to review claims during the episode of carc, peeifically with the
                Compr hensive Error Rate Testing ( ERT) program. PCI' your 2005 recommendation to
                help CM idcntify claims for non-coverd maintenancc therapy ERT has been rcviewing
                6 months of claims data associatcd with each samplcd chiropractic claim giving CMS a
                bctter view of thc cpi ode of care. This changc to our claims process has bcen
                worthwhilc and ha helped us to identify inappropriate billings for maintenance therapy.
                While wc concur with your current recommendation to expand thi 6 month rcvicw to the
                entire treatment episode back to thc initial vi it to help identify other potentially
                inappropriate claim for maintenance therapy we want to analyze thc co t and benefits
                before we fully implement the recommendation in the most recent report.

                OIG Recommendation

                Implement and enforce policies to prevcnt future payment for maintenance therapy by
                implcmenting a cap on all chiropractic claims based on I' commendations from a
                 onsortium of clinical provider and developing a new modifi r.

                CMS Response

                The DIG recommends that CMS implement a cap on all wed chiropractic claims based
                on recommendations from a consortium of clinical providcrs. M would need objective
                data and studics in order to imposc a national cap on the number of sessions a
                chiropractor could provide to a Medicare beneficiary. Although we do not believe




   OEI-07-07-00390          I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                                                          26
A   P   P E N D           I X             ~           D




             Page 2 - Daniel R. Levinson


             sufficient studies or data currently exist. C                          will continue to rcview any such research
             studies as they become available.

             The 010 also recommends that CMS develop a new modi tier for providers to usc to
             report to CMS Ihal a different episode of care is beginning. We appreciate the ugge tion
             and are working Ihrough the policy and operational implications of requiring an
             additional modifier and will consider implementing it ifit is feasible.

             OIG Recommendation

             Review entire treatment episodes rather than individual chiropractic claims to strengthen
             the ability of the CERT to detect errors in chiropractic claims.

             C   S Response

             As we noted earlier. the CM agrees with OIO's recommendation that the CERT
             contractor should review medical records thaI precede the service date orthe chiropractic
             claim being reviewed to look lor possible non-covered maintenance therapy. For several
             months now, the CERT contractor has been reviewing 6 months of medical records tor
             each chiropractic claim included in the CERT sample looking to be sure that the sampled
             claim could not be considered a maintenance visit. CERT considers claims that are
             maintenance visits to be error.

             This change was implemented in response to the OIO's June 2005 report. which looked
             at chiropractic claims submitted in 2001. Atier M eonsultcd with its contractors and
             the chiropractic associations. M determined that a review of 6 months of medical
             records would provide sufficient information to determine if the service billed was
             maintenance therapy. In fact. as a result of your recommendation and the implementation
             of the 6 month requirement. the CERT program reported an increase in the errors for
             chiropractic claims. From 2005 to 2006. the chiropractic claims error rate increased from
             8.9 percent to 15.3 percent.

             Again, whi Ie we concur that a full review of the entire treatment epi ode would further
             help identify potential errors. expanding the CERT review to include the initial claim
             would require additional funding. Based on our research. it would cost the CERT
             program an additional S 150.000-$200.000 per year to expand our reviews of chiropractic
             episodes from 6 to 12 months and more if were to include the beginning of the episode.
             In addition. CM would have to consider the burden on the providers to furnish
             additional medical documentation. CM would have to conduct a cost benefit analysis of
             expanding the review.

             OIG Recommendation
             Ensure that chiropractic claim are not paid un Ie                            documentation requirements are met.




    OEI-07-07-00390        I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                                27
A   P   P E N D         I X              ~           D




             Page 3 - Daniel R. Levinson


            CMS Response

            Based on data analy 'is. contractors identify provider that have a likelihood of a
            sustained or high level of payment error. For those providers. the contractor will review
            the provider's elaims based on the contractor's medical review strategy. When
            performing this review, contractors may collect documentation. such as claims
            information, related to the patient' condition bdore and aner the service in order to get a
            more complete picture of the patient's clinical condition.

            In accordance with current practice. a provider's claims that are reviewed betore the
            claim is paid will not receive payment until the contractor receives sufficient
            documentation to determine that paymem should be made. Since a lack of sufticient
            documentation ollen causes an increase in the provider's denied claims.. the likelihood
            increases that the provider may be selected tor further review, Delaying payment
            indefinitely while wDiting tor all requested documentation would prevent the contractor
            from processing the claims in a timel manner.

            OIG Recommendation

            Take appropriate corrective action regarding the undocumented, medically unneccssary,
            and mi coded claim in our sample.

            CMS Response

            We will advise our contractor to continue to emphasize that appropriate documentation
            must be maintained. We will inform our contractors of the findings in this OIG report
            and request that they include the information contained in this reporl as part of the data
            they consider when prioritizing their strategies. In addition, the contractors will bc
            instructed to take any neces ary corrective action". including determining overpayments.
            when appropriate.

            The CMS thanks the OIG for it eftorts on this report and for highlighting this potential
            vulnerability in the Medicare program. CM is commitled to continually reviewing and
            retining our processes to improve the Medicare program, and we will take the findings of
            this report under consideration as we continue to strengthen our oversight efforts to
            further reduce improper payments in the Medicare program. We look forward to
            continuing to work with the OIG to idenli fY and prevent fraud, waste. and abuse in the
            Medicare program.




    OEI-07-07-00390       I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                                 28
Δ   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office.

                  Brian Whitley served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Kansas City regional
                  office who contributed to the report include Michael Barrett,
                  Megan Buck, and Julie Dusold; central office staff who contributed
                  include Rob Gibbons and Kevin Manley.




OEI-07-07-00390   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   CHIROPRACTIC SERVICES
                                                                                                         29
